No. 20-366

 

 

IN THE

Supreme Court of the United States

DONALD J. TRUMP, PRESIDENT OF THE UNITED STATES,
et al.,

Appellants,
v.

STATE OF NEw YORK, e¢ al.,
Appellees.

On Appeal from the United States District
Court for the Southern District of New York

BRIEF OF LATINOJUSTICE PRLDEF AND
TWELVE AMICI CURIAE
IN SUPPORT OF APPELLEES

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,991 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on November 16, 2020.

 

Wilson-Epes Printing Co., Inc.
